PROOF OF SERVICE
I, Magda Mankaruse, declare:
I am and was at the time of the service mentioned in this action, reside in the County
of Orange, California. 1 am over the age of 18 years and not a party to the within action.
My residence address is 19081 Carp Circle, Huntington Beach, CA 92646.
On July 29, 2021 I served a copy(ies) of the following document(s) described as
PRTITION FOR WRIT OF CERTTIORARI
on the parties to this action by placing them in a sealed envelope(s) addressed as follow
Attorney

Party(ies) Served

Method of Service

Peter Gratzinger
Munger, Tolls & Olson, LLP
350 S. Grand Avenue,
Fiftieth Floor
Los Angeles, CA 90071-1560
Telephone: {213) 683-9100
Facsimile : (213) 687-3702

Counsel for All
Defendants Intel
Corporation, et al

By US Mail

[X]

(BY US Mail) I personally deposited the envelops in the US Postal Service with
Postage thereon fully prepaid in the envelope(s) to the addressee(s) above.
I declare under penalty of perjury under the laws of the United States of America

that the above is true and correct, and that this declaration was executed on July 29, 2021,
in Huntington Beach, California.

Magda Mankaruse

LO
LO
<u

00

03
CL

PETITION INTEL FOR WRIT OF CERTIORARI TO SUPREME COURT OF THE UNITED STATES

